Department of Health and Human Services
                  OFFICE OF
             INSPECTOR GENERAL




   STATE MEDICAID AGENCIES
   CAN SIGNIFICANTLY REDUCE
      MEDICAID COSTS FOR
     DIABETIC TEST STRIPS




 Inquiries about this report may be addressed to the Office of Public Affairs at
                          Public.Affairs@oig.hhs.gov.




                                                  Gloria L. Jarmon
                                               Deputy Inspector General

                                                      March 2014
                                                     A-05-13-00033
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY

 Select State Medicaid agencies obtained or could obtain significant savings on diabetic
 test strips through manufacturer rebates and reduced payments to providers, and similar
 opportunities may be available to other State Medicaid agencies.


WHY WE DID THIS REVIEW

During recent Medicaid audits, we determined that home blood-glucose test strips (test strips) are
available to the Centers for Medicare & Medicaid Services (CMS) and certain State Medicaid
agencies at a net cost well below that available to other State Medicaid agencies. This report
summarizes the findings of those audits and discusses the potential application to other States.

Our objective was to summarize the results of prior audits that identified opportunities for State
Medicaid programs to achieve savings for test strips.

BACKGROUND

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, CMS administers the Medicaid program. Each State administers
its Medicaid program in accordance with a CMS-approved State plan. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements.

Medicare Part B pays for durable medical equipment, prosthetics, orthotics, and supplies
(DMEPOS). DMEPOS includes items such as wheelchairs, hospital beds, and medical supplies
such as test strips. CMS was required to establish a competitive bidding program for selected
DMEPOS categories in Competitive Bidding Areas (CBAs). The CBA program lowered the
Medicare fee schedule payment amounts for medical supply items while ensuring continued
beneficiary access to quality items and services. Round 1 of the DMEPOS competitive bidding
program became effective January 1, 2011, and established single payment amounts for test
strips. The test strip payment rates in the nine CBAs ranged from $13.88 to $15.62.

The Medicare national mail-order DMEPOS competitive bidding program was established for
diabetic testing supplies. National mail-order contracts and prices were effective July 1, 2013.
The American Taxpayer Relief Act of 2012 provided that payments for diabetic supplies that are
non-mail-order items shall be equal to the single payment amounts established under the national
mail-order competition for diabetic supplies. The new Medicare rate, effective July 1, 2013, set
the price for a 50-pack of test strips to $10.41.

State Medicaid agencies may obtain a waiver from CMS to establish special procedures for the
purchase of medical devices, including test strips. States may establish arrangements in which
manufacturers of test strips agree to provide a rebate to the States for each of the manufacturers’
products dispensed to Medicaid beneficiaries and billed to State Medicaid agencies. Under the
rebate programs, the States reimburse Medicaid providers the normal Medicaid fee schedule


State Medicaid Agencies’ Costs for Diabetic Test Strips (A-05-13-00033)                               i
amount and subsequently receive a refund from the manufacturer based on the established rebate
amount. States may also initiate a competitive bidding program to reduce the amount
reimbursed to providers of test strips.

HOW WE CONDUCTED THIS REVIEW

We conducted audits in Illinois, Indiana, New Jersey, New York, and Ohio to determine whether
opportunities exist for State Medicaid programs to achieve savings for test strips. In our reviews,
we requested each State’s Medicaid Management Information System test strip paid claim data
for analysis. We first determined whether each State had a rebate program for test strips and
calculated the amount of cost savings that each State achieved with the rebates. We also
reviewed each State’s Medicaid reimbursement rate for test strips and compared those rates with
available Medicare rates to determine the amount of savings the State could have achieved had it
used a competitive bidding program similar to the Medicare program.

WHAT WE FOUND

In our previous audits, we found that two of the five State Medicaid agencies had saved
$17.9 million through the use of rebates, and four of the five State Medicaid agencies could save
an additional $29.7 million through the use of rebates or competitive bidding on the purchase of
test strips, for a total savings of $47.6 million. We also identified $8.3 million in additional
savings in four of the five States had they obtained pricing comparable to pricing under
Medicare’s national mail-order competition for diabetic supplies.

Through the use of manufacturer rebate programs, two State Medicaid programs reduced the net
cost of test strips by approximately 51 percent. The State Medicaid agencies’ use of
manufacturer rebates led to reduced costs that benefited both the States and the Federal
Government while maintaining access to test strips for Medicaid beneficiaries.

We found that Medicaid provider reimbursement rates for test strips varied significantly among
the States that we reviewed. We determined that opportunities exist for these States to lower
provider reimbursement rates, resulting in cost savings for the State in addition to the savings
that can be achieved through a manufacturer rebate program. One State Medicaid program
initiated a competitive bidding program after the completion of our audit.

WHAT WE RECOMMEND

We recommend that CMS work with State Medicaid agencies to determine whether the use of
manufacturer rebates and lower provider reimbursement rates could achieve net savings for the
purchase of test strips.

CMS COMMENTS

In written comments on our draft report, CMS concurred with our recommendation.




State Medicaid Agencies’ Costs for Diabetic Test Strips (A-05-13-00033)                            ii
                                                     TABLE OF CONTENTS

INTRODUCTION .................................................................................................................1

           Why We Did This Review. ........................................................................................1

           Objective ....................................................................................................................1

           Background ................................................................................................................1
                 Obtaining Lower Rates of Payment: How the Federal Government
                   Has Obtained Lower Prices for Medical Equipment and Supplies .............1

           How We Conducted This Review..............................................................................2

FINDINGS .............................................................................................................................3

           Achieved Cost Savings for Test Strip Purchases Through the Use of
            Manufacturer Rebate Programs ...............................................................................3
                 New York, Indiana, and Illinois Implemented Manufacturer Rebate
                   Programs and Achieved Significant Savings ..............................................3

           Potential Cost Savings for Test Strips Through the Use of Manufacturer Rebate
            Programs or by Lowering Provider Reimbursement Rates .....................................4
                  Ohio’s Implementation of a Manufacturer Rebate Program or
                     Use of Competitive Bidding Could Result in Significantly
                     Lower Test Strip Costs................................................................................4
                  Illinois and New York Implemented Manufacturer Rebate Programs
                     but High Provider Reimbursement Rates Limited Net Savings .................4
                  New Jersey’s High Provider Reimbursement Rates Could be Reduced
                     To Achieve Net Savings for Test Strip Costs .............................................4

           Conclusion .................................................................................................................5

RECOMMENDATION .........................................................................................................6

CMS COMMENTS ...............................................................................................................6

APPENDIXES

           A: Audit Scope and Methodology ............................................................................7

           B: Federal Requirements for Durable Medical Equipment and Supply
              Purchases and Payments ......................................................................................8




State Medicaid Agencies’ Costs for Diabetic Test Strips (A-05-13-00033)                                                                      iii
        C: Cost Savings From Manufacturer Rebates and Lower
           Provider Reimbursement Rates............................................................................9

        D: CMS Comments ...................................................................................................10




State Medicaid Agencies’ Costs for Diabetic Test Strips (A-05-13-00033)                                                         iv
                                                INTRODUCTION

WHY WE DID THIS REVIEW

During recent Medicaid audits, we determined that home blood-glucose test strips (test strips) are
available to the Centers for Medicare & Medicaid Services (CMS) and certain State Medicaid
agencies at a net cost well below that available to other State Medicaid agencies. This report
summarizes the findings of those audits and discusses the potential application to other States.

OBJECTIVE

Our objective was to summarize the results of prior audits that identified opportunities for State
Medicaid programs to achieve savings for test strips.

BACKGROUND

The Medicaid program provides medical assistance to low-income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, CMS administers the Medicaid program. Each State administers
its Medicaid program in accordance with a CMS-approved State plan. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements.

State Medicaid agencies may obtain a waiver from CMS to establish special procedures for the
purchase of medical devices, including test strips. 1 States may establish arrangements in which
manufacturers of test strips agree to provide a rebate to the States for each of the manufacturers’
products dispensed to Medicaid beneficiaries and billed to State Medicaid agencies. Under the
rebate programs, the States reimburse Medicaid providers the normal Medicaid fee schedule
amount and subsequently receive a refund from the manufacturer based on the established rebate
amount. States may also initiate a competitive bidding program to reduce the amount
reimbursed to providers of test strips.

Obtaining Lower Rates of Payment: How the Federal Government Has Obtained
Lower Prices for Medical Equipment and Supplies

Medicare Durable Medical Equipment Competitive Bidding

Medicare Part B pays for durable medical equipment, prosthetics, orthotics, and supplies
(DMEPOS). DMEPOS includes items such as wheelchairs, hospital beds, and medical supplies
such as test strips. Medicare Part B pays for test strips that physicians prescribe for diabetics.
CMS was required to establish a competitive bidding program for selected DMEPOS categories
in Competitive Bidding Areas (CBAs). 2 Round 1 of the DMEPOS competitive bidding program

1
    42 CFR § 431.51(d) and 42 CFR § 431.54(d).
2
    CBAs represent a geographic area that Medicare selected to participate in the competitive bidding program.



State Medicaid Agencies’ Costs for Diabetic Test Strips (A-05-13-00033)                                          1
became effective January 1, 2011, and established single payment amounts for test strips. 3 The
test strip payment rates in the nine CBAs ranged from $13.88 to $15.62.

The CBA program lowered the Medicare fee schedule payment amounts for medical supply
items, including mail-order test strips. The intended result was to reduce beneficiary out-of-
pocket expenses and create savings for taxpayers and the Medicare program while ensuring that
high-quality health care products and services are available to beneficiaries.

Medicare National Mail-Order Program

The national mail-order DMEPOS competitive bidding program was established for diabetic
testing supplies. Round 2 and national mail-order contracts and prices were effective July 1,
2013. The national mail-order competition includes all parts of the United States, including the
50 States, the District of Columbia, Puerto Rico, the U.S. Virgin Islands, Guam, and American
Samoa.

Medicare National Non-Mail-Order Pricing

The American Taxpayer Relief Act of 2012 provided that payments for diabetic supplies,
including test strips, that are non-mail-order items shall be equal to the single payment amounts
established under the national mail-order competition for diabetic supplies. 4 The new Medicare
rate, effective July 1, 2013, set the price for a 50-pack of test strips to $10.41.

HOW WE CONDUCTED THIS REVIEW

We conducted audits in Illinois, Indiana, New Jersey, New York, and Ohio to determine whether
opportunities exist for State Medicaid programs to achieve savings for test strips. In our reviews,
we requested each State’s Medicaid Management Information System test strip paid claim data
for analysis. We first determined whether each State had a rebate program for test strips and
calculated the amount of cost savings that each State achieved with the rebates. We also
reviewed each State’s Medicaid reimbursement rate for test strips and compared those rates with
available Medicare rates to determine the amount of potential savings had the State used a
competitive bidding program similar to the Medicare program.

Appendix A contains the details of our scope and methodology, Appendix B contains the
applicable Federal requirements, and Appendix C contains a listing of the achieved and potential
savings for each of the five States that we audited.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain

3
  For each round, DMEPOS suppliers competed to become Medicare contract suppliers by submitting bids to furnish
certain items in competitive bidding areas. Round 1 included nine CBAs for nine product categories. Round 2
included 100 CBAs for 8 product categories, with diabetic testing supplies covered under the national mail-order
competition.
4
    P.L. No. 112-240, § 636 (Jan. 2, 2013).



State Medicaid Agencies’ Costs for Diabetic Test Strips (A-05-13-00033)                                       2
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                                 FINDINGS

In our previous audits, we found that two of the five State Medicaid agencies had saved
$17.9 million through the use of rebates, and four of the five State Medicaid agencies could save
an additional $29.7 million through the use of rebates or competitive bidding on the purchase of
test strips, for a total savings of $47.6 million. We also identified $8.3 million in additional
savings in four of the five States had they obtained pricing comparable to pricing under
Medicare’s national mail-order competition for diabetic supplies.

Through the use of manufacturer rebate programs, two State Medicaid programs reduced the net
cost of test strips by approximately 51 percent. The State Medicaid agencies’ use of
manufacturer rebates led to reduced costs that benefited both the States and the Federal
Government while maintaining access to test strips for Medicaid beneficiaries.

We found that Medicaid provider reimbursement rates for test strips varied significantly among
the States that we reviewed. We determined that opportunities exist for these States to lower
provider reimbursement rates, resulting in cost savings for the State in addition to the savings
that can be achieved through a manufacturer rebate program. One State Medicaid program
initiated a competitive bidding program after the completion of our audit.

ACHIEVED COST SAVINGS FOR TEST STRIP PURCHASES THROUGH
THE USE OF MANUFACTURER REBATE PROGRAMS

New York, Indiana, and Illinois Implemented Manufacturer Rebate Programs and
Achieved Significant Savings

The New York Medicaid program achieved savings of approximately 51 percent by obtaining
manufacturer rebates through its preferred diabetic supply program. Overall, the New York
Medicaid program achieved savings of approximately $16.7 million from October 1, 2009,
through September 30, 2010, through the use of manufacturer rebates.

The Indiana Medicaid program achieved savings of approximately 50 percent by establishing a
manufacturer rebate program for test strips. Overall, the Indiana Medicaid program achieved
savings of approximately $1.2 million from January 1 through June 30, 2011, through the use of
manufacturer rebates for test strips.

The Illinois Medicaid program reduced the net cost of test strips purchased from July 1, 2010,
through June 30, 2011, through the use of a manufacturer rebate program. The net cost of test




State Medicaid Agencies’ Costs for Diabetic Test Strips (A-05-13-00033)                            3
strips obtained through Illinois’ manufacturer rebate program was significantly lower than the
Illinois Medicaid average reimbursement rate for test strips. 5

POTENTIAL COST SAVINGS FOR TEST STRIPS THROUGH THE USE OF
MANUFACTURER REBATE PROGRAMS OR BY LOWERING PROVIDER
REIMBURSEMENT RATES

Ohio’s Implementation of a Manufacturer Rebate Program or Use of Competitive Bidding
Could Result in Significantly Lower Test Strip Costs

The Ohio Medicaid program could have achieved savings of approximately $8 million from
July 1, 2010, through June 30, 2011, for test strips by establishing a competitive bidding program
or through the use of manufacturer rebates. We determined that Medicare payment rates
obtained for mail-order test strips through competitive bids in two Ohio CBAs and Medicaid
payment rates that the Indiana Medicaid program obtained through manufacturer rebates were
significantly lower than the Ohio Medicaid maximum reimbursement rate. Establishing a
competitive bidding mail-order program similar to the Medicare program or using manufacturer
rebates could result in an approximately 50-percent reduction in the cost of test strips.

Ohio notified us on March 11, 2013, that it had recently awarded test strip vendor contracts that
are expected to provide manufacturer rebates that will reduce expenditures by 76 percent.

Illinois and New York Implemented Manufacturer Rebate Programs but High Provider
Reimbursement Rates Limited Net Savings

We determined that the Illinois average Medicaid provider reimbursement rate for test strips was
significantly greater than the corresponding Illinois Medicare rate. By reducing its provider
reimbursement rates, Illinois could further lower the net cost of test strips and could have
achieved additional savings of approximately $8.5 million from July 1, 2010, through June 30,
2011.

We determined that the New York average Medicaid reimbursement rate after manufacturers’
rebates was greater than the corresponding Medicare reimbursement rates for mail-order test
strips obtained through competitive bids in the nine CBAs. By reducing its provider
reimbursement rates, New York could further lower the net cost of test strips and could have
achieved additional savings of approximately $5.9 million from October 1, 2009, through
September 30, 2010.

New Jersey’s High Provider Reimbursement Rates Could be Reduced To Achieve Net
Savings for Test Strip Costs

New Jersey did not have a manufacturer rebate program. However, we determined that both
retail test strip prices and Medicare prices obtained through competitive bids were lower than

5
  Illinois’ manufacturer rebate amounts included proprietary information; therefore, we have not presented the
Illinois rebate savings in our report.



State Medicaid Agencies’ Costs for Diabetic Test Strips (A-05-13-00033)                                          4
New Jersey’s average Medicaid fee-for-service prices and the rates paid by the Medicaid
managed care organizations’ (MCOs). On the basis of our review of New Jersey’s Medicaid fee-
for-service and MCO test strip payments, retail test strip prices, and Medicare CBA payment
rates, the State Medicaid agency could achieve savings of approximately $4.9 million to
$7.2 million by reducing test strip prices to retail levels or establishing a competitive bidding
program similar to the Medicare program.

CONCLUSION

On the basis of our review, we found that opportunities exist for States to significantly lower the
net cost of test strips. States have already achieved significant savings by implementing
manufacturer rebate programs. However, high reimbursement rates for test strips in some States
have limited the potential for savings. Pricing under the Medicare national mail-order
competition for diabetic supplies, effective July 1, 2013, lowered the price of both mail-order
and non-mail-order test strips to $10.41 for Medicare beneficiaries. If States could replicate the
lower Medicare prices through manufacturer rebates or reduced provider reimbursement rates,
they could achieve greater cost savings.

The table details additional cost savings of $8.3 million that the five States that we reviewed
could achieve by reducing reimbursement rates for test strips to the Medicare rate of $10.41.

                   Table: Additional Cost Savings Using Medicare National Pricing

                           Reported Savings                Additional Savings
                                                                                             Total Potential
           State           From Prior Audits                Using Medicare
                                                                                                Savings
                           (See Appendix C)                 National Pricing
Illinois                               $8,542,819                               N/A 6                  $8,542,819
Indiana                                  1,245,063                          $387,367                    1,632,430
New Jersey                               7,185,714                         1,060,980                    8,246,694
New York                               22,652,123                          3,476,190                   26,128,313
Ohio                                     8,053,168                         3,406,759                   11,459,927
        Total                         $47,678,887                         $8,331,296                 $56,010,183

State Medicaid agencies’ use of manufacturer rebates led to reduced costs that benefited both the
States and the Federal Government while maintaining access to test strips for Medicaid
beneficiaries. In addition to the savings that can be achieved through a manufacturer rebate
program, we determined that pricing under the Medicare national mail-order competition
provides opportunities for States to lower reimbursement rates, resulting in an additional
$8.3 million in cost savings for the States.


6
  Illinois’ manufacturer rebate amounts included proprietary information; therefore, we have not presented the
Illinois rebate savings in our report.



State Medicaid Agencies’ Costs for Diabetic Test Strips (A-05-13-00033)                                          5
                                         RECOMMENDATION

We recommend that CMS work with State Medicaid agencies to determine whether the use of
manufacturer rebates and lower provider reimbursement rates could achieve net savings for the
purchase of test strips.

                                            CMS COMMENTS

In written comments on our draft report, CMS concurred with our recommendation. CMS’s
comments are included in their entirety as Appendix D.




State Medicaid Agencies’ Costs for Diabetic Test Strips (A-05-13-00033)                         6
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our prior reviews covered various periods from October 1, 2009, through December 31, 2011.
We conducted our fieldwork at State Medicaid agencies in Illinois, Indiana, New Jersey, New
York, and Ohio from August 2011 through August 2012.

METHODOLOGY

To accomplish our objective, we analyzed the findings and recommendations from our prior
reviews. As part of the prior audits, we:

    •   reviewed applicable Federal and State laws and regulations;

    •   identified the Medicare payment rates for test strips in nine CBAs;

    •   identified negotiated manufacturer test strip rebates;

    •   obtained and reviewed a list of Medicaid paid claims for test strips;

    •   determined the number of Medicaid paid claims and amounts that were reimbursed;

    •   based on the paid claims identified above, calculated the amounts that the State agency
        would have paid if competitive bidding, retail pricing, or rebate programs were in place;
        and

    •   determined the approximate amount of cost savings for test strips by comparing the
        amount that the State agency reimbursed providers with the amount calculated under
        competitive bidding, retail pricing, or manufacturer rebate programs.

Additionally, for this audit we determined the amount of savings available to the five States had
they obtained pricing comparable to pricing under the Medicare national mail-order competition
for diabetic supplies.

Although we did not independently verify the reliability of the data, we compared it with other
available supporting documents to determine data consistency and reasonableness. From these
efforts, we maintain that the data obtained is sufficiently reliable for this report.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




State Medicaid Agencies’ Costs for Diabetic Test Strips (A-05-13-00033)                             7
         APPENDIX B: FEDERAL REQUIREMENTS FOR DURABLE MEDICAL
             EQUIPMENT AND SUPPLY PURCHASES AND PAYMENTS

MEDICAID SPECIAL PROCEDURES FOR MEDICAL DEVICES PURCHASES

Section 1915(a)(1)(B) of the Social Security Act (the Act) and requirements established in
42 CFR § 431.51(d) and 42 CFR § 431.54(d) specify that a State Medicaid agency may establish
special procedures for the purchase of medical devices through a competitive bidding process or
other process if the State assures, in the certification required under section 431.51(d), and CMS
finds that adequate services or devices are available to beneficiaries under the special procedures.

MEDICARE DURABLE MEDICAL EQUIPMENT FEE SCHEDULE

Section 1834(a) of the Act provides the requirements for the Durable Medical Equipment fee
schedule payment methodology. Medicare generally pays for most medical equipment and
supplies on the basis of fee schedules. The amount allowed for payment of test strips is
generally equal to the lesser of the Medicare fee schedule amount or the amount charged by a
supplier. Medicare fee schedule payments for DMEPOS are updated each year by a measure of
price inflation and a productivity adjustment.

AMERICAN TAXPAYER RELIEF ACT OF 2012

Section 636 of the American Taxpayer Relief Act of 2012, entitled Medicare Payment of
Competitive Prices for Diabetic Supplies and Elimination of Overpayment for Diabetic Supplies,
provides that the payment amount under this part for diabetic supplies, including test strips, that
are non-mail-order items (as defined by the Secretary) shall be equal to the single payment
amounts established under the national mail-order competition for diabetic supplies.




State Medicaid Agencies’ Costs for Diabetic Test Strips (A-05-13-00033)                           8
           APPENDIX C: COST SAVINGS FROM MANUFACTURER REBATES AND
                     LOWER PROVIDER REIMBURSEMENT RATES

                                                                                       Medicare
                           Reported   Reported      Total                              National           Total
               Report      Achieved    Potential   Reported                             Pricing         Potential
State         Number 7     Savings     Savings     Savings                             Savings           Savings
Illinois   A-05-12-00009        N/A 8 $8,542,819 $8,542,819                                   N/A        $8,542,819
Indiana    A-05-12-00011 $1,245,063       -        1,245,063                             $387,367         1,632,430
                                                 9
New Jersey A-02-12-01010      -       7,185,714    7,185,714                            1,060,980         8,246,694
New York A-02-11-01042 16,702,422      5,949,701 22,652,123                             3,476,190        26,128,313
Ohio       A-05-11-00098      -        8,053,168   8,053,168                            3,406,759        11,459,927
Total                    $17,947,485 $29,731,402 $47,678,887                           $8,331,296       $56,010,183




 7
     These reports are available at https://oig.hhs.gov.
 8
   Illinois’ manufacturer rebate amounts included proprietary information; therefore, we have not presented the
 Illinois rebate savings in our report.
 9
  Reported savings represent a range of potential savings that could be achieved by using retail pricing or CBA
 pricing for New Jersey’s MCOs ($3.1 million to $4.5 million) as well as the Medicaid fee-for-service program
 ($1.8 million to $2.7 million), or a total range between $4.9 million to $7.2 million.



 State Medicaid Agencies’ Costs for Diabetic Test Strips (A-05-13-00033)                                          9
                                         APPENDIX D: CMS COMMENTS 



   / 	 ....~...
  ~.:/-	 OEPAIITMENT OF HEALTH                     & HUMAN SERVICES                             Centers IO< Medicare & Medicaid Services


                                                                                                Administrator
                                                                                                Washington, DC 20201




                  DATE:            NOV 29 21113

                  TO: 	          David R. Levinson
                                 Inspector General

                  FROM:


                  SUBJECT: 	 Office of Inspector General (OIG) Draft Report: "State Medicaid Agencies Can
                             Significantly Reduce Medicaid Costs for Diabetic Test Strips" (A-05-13-00033)

                  Thank you for the opportunity to review and comment on the above-referenced OIG draft report.
                  The purpose ofthis report was to summarize the results ofprior audits that identified opportunities
                  for state Medicaid agencies to achieve savings for diabetic test strips. Specifically, OIG conducted
                  audits in the following five states: Illinois, Indiana, New Jersey, New York and Ohio to detennine
                  whether these particular state Medicaid programs have the potential to achieve savings for test strips.

                  The audits revealed that:

                      • 	 Medicaid provider reimbursement rates for test strips varied significantly among each ofthe
                          above mentioned states.

                      • 	 Two ofthe state Medicaid programs reduced their net cost of test strips by approximately
                          51 percent and saved $17.9 million through the use ofmanufacturer rebate programs.

                      • 	 Four ofthe five state Medicaid agencies could save an additional $29.7 million through the
                          use ofrebates or competitive bidding on the purchase oftest strips, for a total savings of
                          $47.6 million.

                      • 	 Potential additional savings of$8.3 million were identified in four ofthe five states had they
                          obtained pricing comparable to pricing under Medicare's national mail-order competition for
                          diabetic supplies.




State lvkdicaidAgencies' Costs for Diabetic Test Strips (A-05-13-00033)                                                                    10
                                                                                                    P a g ..:   12
              OIG Recommendation

              The OIG recommends that CMS work with state Medicaid agencies to determine whether the use
              ofmanufacturer rebates and lower provider reimbursement rates could achieve net savings for
              the purchase of diabetic test strips.

              CMS Response

              We concur with OIG's recommendation and note that we encourage states to pursue innovative
              reimbursement methodologies that help them meet statutory requirements for economy and
              efficiency whi le ensuring beneficiaries have access to quality services. We provide ongoing
              technical assistance and support to states developing and implementing value-based purchasing
              strategies. States can also pursue selective contracting using section 1915(b) authority.

              CMS appreciates the efforts ofOIG in identifying opportunities for stale Medicaid agencies to
              achieve savings for lest strips. We look forward to working with OIG on this and other issues in
              the future.




State lvkdicaidAgencies' Costs for Diabetic Test Strips (A-05-13-00033)                                              11
